<html>
<title> - THE DEPARTMENT OF THE INTERIOR'S FINAL LIST OF CRITICAL MINERALS FOR 2018 AND OPPORTUNITIES TO STRENGTHEN THE UNITED STATES' MINERAL SECURITY</title>
<body><pre>[Senate Hearing 115-523]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 115-523

 THE DEPARTMENT OF THE INTERIOR'S FINAL LIST OF CRITICAL MINERALS FOR 
    2018 AND OPPORTUNITIES TO STRENGTHEN THE UNITED STATES' MINERAL 
                                SECURITY

=======================================================================

                                HEARING

                               BEFORE THE

                              COMMITTEE ON
                      ENERGY AND NATURAL RESOURCES
                          UNITED STATES SENATE

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 17, 2018

                               __________


                  [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
 
 
                       Printed for the use of the
               Committee on Energy and Natural Resources

        Available via the World Wide Web: http://www.govinfo.gov


                                 ______        
        
        

                   U.S. GOVERNMENT PUBLISHING OFFICE

30-983                      WASHINGTON : 2020






        
               COMMITTEE ON ENERGY AND NATURAL RESOURCES

                    LISA MURKOWSKI, Alaska, Chairman
                    
JOHN BARRASSO, Wyoming               MARIA CANTWELL, Washington
JAMES E. RISCH, Idaho                RON WYDEN, Oregon
MIKE LEE, Utah                       BERNARD SANDERS, Vermont
JEFF FLAKE, Arizona                  DEBBIE STABENOW, Michigan
STEVE DAINES, Montana                JOE MANCHIN III, West Virginia
CORY GARDNER, Colorado               MARTIN HEINRICH, New Mexico
LAMAR ALEXANDER, Tennessee           MAZIE K. HIRONO, Hawaii
JOHN HOEVEN, North Dakota            ANGUS S. KING, JR., Maine
BILL CASSIDY, Louisiana              TAMMY DUCKWORTH, Illinois
ROB PORTMAN, Ohio                    CATHERINE CORTEZ MASTO, Nevada
SHELLEY MOORE CAPITO, West Virginia  TINA SMITH, Minnesota

                      Brian Hughes, Staff Director
                Patrick J. McCormick III, Chief Counsel
                Annie Hoefler, Professional Staff Member
             Mary Louise Wagner, Democratic Staff Director
                Sam E. Fowler, Democratic Chief Counsel
              Rebecca Bonner, Democratic Legislative Aide


                            C O N T E N T S

                              ----------                              

                           OPENING STATEMENTS

                                                                   Page
Murkowski, Hon. Lisa, Chairman, and a U.S. Senator from Alaska...     1
Wyden, Hon. Ron, a U.S. Senator from Oregon......................     3

                               WITNESSES

Fortier, Dr. Steven M., Director, National Minerals Information 
  Center, U.S. Geological Survey, U.S. Department of the Interior     5
Eggert, Dr. Roderick G., Viola Vestal Coulter Foundation Chair in 
  Mineral Economics, Colorado School of Mines, and Deputy 
  Director, Critical Materials Institute, an Energy Innovation 
  Hub funded by the Department of Energy, Advanced Manufacturing 
  Office.........................................................    14
Sims, Jim, Vice President of External Affairs, NioCorp 
  Developments Ltd...............................................    24
Mintzes, Aaron, Senior Policy Counsel, Earthworks................    43
Sayer, Laurel, President and CEO, Midas Gold Idaho, Inc..........    50
Gregory, Greg, President, Materion Natural Resources.............    64

          ALPHABETICAL LISTING AND APPENDIX MATERIAL SUBMITTED

Capito, Hon. Shelley Moore:
    Chart of 2017 U.S. Net Import Reliance from the USGS Mineral 
      Commodity Summaries 2018...................................    82
Eggert, Dr. Roderick G.:
    Opening Statement............................................    14
    Written Testimony............................................    16
    Responses to Questions for the Record........................    98
Fortier, Dr. Steven M.:
    Opening Statement............................................     5
    Written Testimony............................................     7
    Responses to Questions for the Record........................    93
Gregory, Greg:
    Opening Statement............................................    64
    Written Testimony............................................    66
    Responses to Questions for the Record........................   111
Mintzes, Aaron:
    Opening Statement............................................    43
    Written Testimony............................................    45
    Responses to Questions for the Record........................   104
Murkowski, Hon. Lisa:
    Opening Statement............................................     1
Sayer, Laurel:
    Opening Statement............................................    50
    Written Testimony............................................    52
    Responses to Questions for the Record........................   108
Sims, Jim:
    Opening Statement............................................    24
    Written Testimony............................................    26
    Responses to Questions for the Record........................   101
Wyden, Hon. Ron:
    Opening Statement............................................     3


 
 THE DEPARTMENT OF THE INTERIOR'S FINAL LIST OF CRITICAL MINERALS FOR 
    2018 AND OPPORTUNITIES TO STRENGTHEN THE UNITED STATES' MINERAL 
                                SECURITY

                              ----------                              


                         TUESDAY, JULY 17, 2018

                                       U.S. Senate,
                 Committee on Energy and Natural Resources,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 10:03 a.m. in 
Room SD-366, Dirksen Senate Office Building, Hon. Lisa 
Murkowski, Chairman of the Committee, presiding.

           OPENING STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    The Chairman. Good morning, everyone. The Committee will 
come to order.
    We are here today to discuss our nation's mineral security 
or, as I note, the continued lack of mineral security in this 
country. This is not a new issue for us. In fact, this is 
actually the fifth hearing that we have held on this subject in 
almost as many years.
    I think, Senator Wyden, you will recall, we have been 
talking about this for a while. While we continue to discuss 
it, the United States' dependence on foreign minerals has 
continued to increase. Last year our nation imported 100 
percent of our supply of 21 minerals and at least 50 percent of 
50 minerals. So to, kind of, put that in perspective, in 1997 
we imported 100 percent of 11 minerals and at least 50 percent 
of 26 minerals. We have just about doubled our dependence in 
the past two decades alone.
    These trends were ignored for a long time, but I think we 
are finally starting to see some positive efforts to reverse 
the tide. Last December, the President took a significant step 
by issuing an Executive Order that directed multiple 
departments to develop a strategy to reduce our foreign 
dependence. The first piece of that order directed the 
Department of the Interior (DOI) to develop a list of 
``critical minerals.'' Secretary Zinke published that first 
annual list back in May. It includes 35 minerals deemed to be 
critical because of their economic importance, but vulnerable 
to potential supply disruptions. I am pleased the Secretary and 
his team at the U.S. Geological Survey (USGS) put that list out 
for us.
    As members of Congress, we also have an opportunity to pass 
legislation to address this growing vulnerability. I want to 
thank those Senators who co-sponsored and supported my recent 
amendment to the NDAA. We were not able to add it to the bill 
on a unanimous basis, but I am certainly continuing to 
encourage the NDAA conferees to retain language to boost our 
mineral security.
    This hearing and our opportunity with NDAA are particularly 
timely based on what is happening with international trade. A 
few years back, China chose to cut off Japan's supply of rare 
earth elements. At that time, the U.S. had a small supply from 
the Mountain Pass Mine in California, but it only produced 
certain rare earths. It has since closed, so we don't even have 
that as a safety net anymore.
    My concern is if China ultimately responds to tariffs by 
restricting our supply of rare earths, or any number of other 
minerals, the U.S. could be in serious trouble.
    We have heard testimony in the past about the dangers of 
the concentration of supply from a handful of countries that 
control the supply chain. I am hopeful that we are not about to 
experience those dangers firsthand and will continue to urge 
action to reduce this significant vulnerability.
    That is really what this is all about, a serious but, I 
think, needless vulnerability. Our mineral security does not 
have to be at rock bottom. Many parts of our country, including 
Alaska, are rich in mineral resources. What we lack is a sense 
of urgency to ensure that our policies promote their 
responsible production. We have to get away from this 
``immaculate conception'' theory of your iPhone, fighter jets, 
solar panels, all these things just happen, they just appear 
out of thin air. We have to acknowledge the fact that many of 
the materials that are used to make them actually come from the 
ground. We have to dig them up, and that is an inconvenient 
truth for some.
    I recognize that some are reluctant to address the main 
driver of this problem, and I look to our broken federal 
permitting system. But I believe that we can make some 
improvements, that we have to make improvements, and we must do 
this all while we are protecting the environment.
    The U.S. has the highest safety standards for mining 
anywhere in the world. We have the experience. We have the 
expertise to do it right. We need to work on our workforce. We 
also live in a world where permitting delays and litigation 
deter investment in our country, so we want to speak to that.
    We have a very distinguished panel with us this morning to 
help us understand the latest trends and what we can do about 
them. We will hear from technical experts from the USGS and the 
Critical Materials Institute who are following markets and 
working to develop alternatives to the many minerals, which is 
an important part of the conversation is, what else is out 
there. We will also hear from companies who want to produce 
minerals in states that strongly support their efforts. And we 
will hear from material manufacturers who take minerals and 
turn them into alloys for medical imaging equipment, defense 
applications, and more.
    So I thank you all for being here. Some days, I feel like 
this is Groundhog Day all over again, we are back again, we are 
talking about the same thing.
    Perhaps that is just the role of this Committee. We will 
continue to push on it, because it is an issue that deserves, 
demands the attention and the focus that this Committee is 
giving it.
    With that, I turn to my friend from Oregon, Senator Wyden. 
It is good to have you back here.

                 STATEMENT OF HON. RON WYDEN, 
                    U.S. SENATOR FROM OREGON

    Senator Wyden. Thank you, Madam Chair, and I very much 
appreciate your holding this hearing. I think we both know that 
reminiscing around here can just be insufferable.
    I do just briefly want to note that you and I have a 
history on this topic. When I was Chair, we held a hearing to 
discuss our comprehensive, bipartisan bill, the Murkowski-Wyden 
Critical Minerals Policy Act. That bill was smart minerals 
policy because it demonstrated that efficient, predictable 
management of U.S. mineral supplies and protecting America's 
land and water are not mutually exclusive. That bill showed it 
is possible to do both.
    Now today's hearing is especially important because, in my 
view, the President has embarked on an about-face on both 
fronts. The Trump Administration is now promoting an unfair 
policy on tariffs that means that because of his approach with 
respect to tariffs on critical minerals, U.S. companies will be 
needlessly hurt in their ability to compete. This is going on 
while simultaneously there is an effort to gut the 
environmental laws. That is a real combination. Hurting family-
wage jobs and clean air and water is, in my view, foolish even 
by Washington, DC, beltway standards. Here's why: The U.S. 
imports most of these key minerals, including 100 percent of 
rare earth metals. The imports come mostly from China. Critical 
minerals are at the heart of technologies like solar cells, 
wind turbines and batteries that are moving our country to a 
more efficient, lower carbon energy future. They are essential 
to creating more red, white and blue jobs as the clean energy 
economy already supports 6.4 million jobs across the country.
    Now, as the Chair just noted, it is especially important 
this morning to also talk about trade issues. As the Ranking 
Democrat on the Senate Finance Committee with jurisdiction over 
trade, my trade philosophy has been really simple. Make it in 
America, grow it in America, add value to it in America, and 
then ship it somewhere. One sentence.
    Instead of that kind of approach, which means you have to 
have a level playing field for our red, white and blue 
manufacturers, the President is now taking a bad situation and 
making it worse. Our manufacturers are already heavily 
dependent on Chinese supplies and China has made it difficult 
for them to obtain raw materials. Now the President wishes to 
make it even harder for U.S. manufacturers with a flawed tariff 
approach that would impose new U.S. tariffs on the raw 
materials import, making it yet more expensive and potentially 
prohibitive for U.S. tech manufacturers to make products here 
at home.
    In 2010, China tried to restrict the export of critical 
rare earth minerals, causing both price spikes and supply 
shortages across the tech sector. The United States 
successfully challenged China before the World Trade 
Organization and we were able to restore a measure of stability 
in the market. But now, thanks to the Trump Administration, 
U.S. manufacturers that depend on China for these and other 
critical materials are once again in great jeopardy.
    To basically have that trade policy that I just outlined, 
growing things here, making things here, American manufacturers 
have to have access to critical minerals. The President's trade 
strategy is almost impossible to determine, but what I know for 
sure is that we get a daily dose of trade chaos and that kind 
of chaos, particularly here, threatens access to minerals, and 
it will be American workers and American companies who suffer 
for it.
    Our country has come a long way in efficiently locating, 
extracting, processing and using critical minerals. And I want 
to come back, just as we wrap up because I see Senator Manchin 
is here. I enjoyed going to West Virginia and talking about 
energy policy with him.
    Colleagues, this does not have to be an either/or choice. 
Making sure we have markets for our companies while not harming 
our land, air and water--those things are not mutually 
exclusive. We can have smart policies that do both.
    I think I remember, Mr. Eggert, we talked about this 
already once here in this Committee.
    I am very much in favor, as I know the Chair is, of 
developing domestic supplies of rare earth and critical 
minerals. The two of us showed, back in 2013, how to go about 
doing it. We also called for a review of federal hard rock 
mining regulations and permitting, which the Chair noted, and 
leasing procedures.
    I really look forward to this morning's discussion. We 
should not have to wait another six years to come out with the 
kind of smart policy that I thought the Chair and I were 
striving for back in 2013.
    Madam Chair, thank you and I look forward to tackling this 
issue, and I know a number of others do, with you.
    The Chairman. Senator Wyden, thank you and thanks for, kind 
of, outlining some of the history there. You have reiterated 
that there has been a multiyear effort to direct a focus on 
this as a problem, recognizing that there is a level of 
urgency. When there are other policies that then come on top of 
what we might be seeking to do, that conflict and confound it, 
we have our work cut out for us.
    Senator Wyden. Sounds like a law firm, conflict and 
confound.
    The Chairman. Conflict and confound, yes. I am not going 
there.
    [Laughter.]
    I want to welcome our panel this morning. I think we 
recognize that we have a good group to help educate us further 
on these issues, so I welcome each of you.
    I would ask you to try to keep your comments to about five 
minutes. Your full statements will be included as part of the 
record.
    I do believe that we have a couple votes that are scheduled 
around 11:45 or noon, so we will be on the lookout for that. We 
are going to try to get through all of your opening statements 
and all of our questions.
    We are joined this morning by Dr. Steven Fortier. He is the 
Director at the National Minerals Information Center at USGS. 
We are pleased to have you here this morning.
    As Senator Wyden has noted, Dr. Eggert has been with us 
before. He is with the Viola Vestal Coulter Foundation. He is 
the Chair in Mineral Economics at the Colorado School of Mines 
and the Deputy Director for the Critical Materials Institute.
    Mr. Jim Sims is the Vice President for External Affairs at 
Nio Corporation Developments Limited. We are pleased to have 
you.
    Aaron Mintzes is the Senior Policy Counsel at Earthworks. 
We welcome you.
    Ms. Laurel Sayer is the President and CEO for Midas Gold 
Idaho. Welcome.
    And Mr. Greg Gregory is the President for Materion Natural 
Resources Incorporated.
    We are pleased to have all of you with us this morning.
    Dr. Fortier, if you would like to lead off the panel?
    Again, thank you.

STATEMENT OF DR. STEVEN M. FORTIER, DIRECTOR, NATIONAL MINERALS 
INFORMATION CENTER, U.S. GEOLOGICAL SURVEY, U.S. DEPARTMENT OF 
                          THE INTERIOR

    Dr. Fortier. Good morning, Chairman Murkowski, Ranking, or 
Senator Wyden and members of the Committee.
    Thank you for the opportunity to discuss the U.S. 
Geological Survey's efforts related to critical minerals.
    The U.S. Geological Survey conducts scientific research on 
minerals, assesses subsurface mineral resources in geological 
deposits and provides statistics on the worldwide supply and 
demand for minerals commodities essential to the U.S. economy 
and national security.
    USGS data show that domestic and global demand for mineral 
commodities continues to increase. An increasingly broad range 
of mineral commodities is used in consumer and national 
security applications, especially those involving advanced 
technologies.
    While the United States remains a major mineral producer 
with an estimated total of non-fuel mineral resources of $75.2 
billion in 2017, our country is increasingly reliant on foreign 
sources for many sources of raw and processed mineral 
materials.
    As the Chair noted, in 2017 the U.S. was 100 percent import 
reliant for 21 mineral commodities and at least 50 percent 
import reliant for 50 mineral commodities. This dependency of 
the United States on foreign sources creates the potential for 
strategic vulnerabilities for our economic and national 
security interests as a result of adverse foreign government 
actions, natural disasters or other events that can disrupt 
supply of important minerals.
    On September 20, 2017, President Trump issued Executive 
Order 13817, a federal strategy to ensure secure and reliable 
supplies of critical minerals. The Executive Order directed the 
Federal Government to deliver an interagency report to include: 
(1) a strategy to reduce the nation's reliance on critical 
minerals; (2) an assessment of progress toward developing 
critical minerals recycling and reprocessing technologies and 
technological alternatives to critical minerals; (3) options 
for accessing and developing critical minerals through 
investment and trade with our allies and partners; (4) a plan 
to improve the topographic, geologic and geophysical mapping of 
the United States; and (5) recommendations to streamline 
permitting and review processes related to critical minerals.
    The Executive Order directed the Secretary of the Interior, 
in coordination with the Department of Defense (DoD) and in 
consultation with other Executive Branch agencies, to produce a 
list of critical minerals. The USGS, in coordination with the 
Bureau of Land Management and with broad federal interagency 
input, led the development of the critical minerals list.
    The Secretary of Interior published a final list of 35 
critical minerals in the Federal Register on May 18, 2018. This 
list was developed using multiple sources of data but started 
with a screening methodology developed by the National Science 
and Technology Council. Following this methodology, the U.S. 
applied two principle quantitative criteria to evaluate 
minerals for inclusion on the list of critical minerals: a 
quantitative metric to measure country concentration of 
production and a net import reliance metric which measures the 
extent to which the U.S. is dependent on other countries for 
its supply of the material. Both metrics are based on USGS 
data.
    The list of critical minerals does not include a number of 
important minerals that are produced domestically in large 
quantities. The U.S. is not highly reliant on imports for these 
minerals and typically has a combination of domestic reserves 
and reliable foreign sources adequate to meet foreseeable 
domestic consumption requirements.
    Pursuant to the Executive Order, the USGS is also leading 
development of a plan to greatly enhance the nation's 
understanding of its subsurface geological endowment of 
critical mineral resources. The plan would lead to the creation 
of a new generation of geological, geophysical and topographic 
maps based on the newest technologies in science. The analysis 
and interpretation of these new maps will also improve our 
understanding of groundwater resources, energy resources, 
geologic hazards and other societal needs.
    Thank you for the opportunity to present on the important 
subject of critical minerals. We appreciate the strong 
engagement of Congress, other federal agencies and of the 
coordinating roles played by the White House Office of Science 
and Technology Policy, the Council on Environmental Quality and 
the National Economic Council.
    I will be happy to answer any questions.
    [The prepared statement of Dr. Fortier follows:]
    [GRAPHIC] [TIFF OMITTED] T0983.001
    
    [GRAPHIC] [TIFF OMITTED] T0983.002
    
    [GRAPHIC] [TIFF OMITTED] T0983.003
    
    [GRAPHIC] [TIFF OMITTED] T0983.004
    
    [GRAPHIC] [TIFF OMITTED] T0983.005
    
    [GRAPHIC] [TIFF OMITTED] T0983.006
    
    [GRAPHIC] [TIFF OMITTED] T0983.007
    
    The Chairman. Thank you, Dr. Fortier.
    Dr. Eggert, welcome.

   STATEMENT OF DR. RODERICK G. EGGERT, VIOLA VESTAL COULTER 
   FOUNDATION CHAIR IN MINERAL ECONOMICS, COLORADO SCHOOL OF 
 MINES, AND DEPUTY DIRECTOR, CRITICAL MATERIALS INSTITUTE, AN 
   ENERGY INNOVATION HUB FUNDED BY THE DEPARTMENT OF ENERGY, 
                 ADVANCED MANUFACTURING OFFICE

    Dr. Eggert. Good morning, Chairman Murkowski, Senator 
Wyden, members of the Committee. Thank you for the opportunity 
to testify once again before this Committee.
    As you noted in your introduction, I wear two hats this 
morning. I'm a mineral economist at Colorado School of Mines, 
and I also am Deputy Director of something called the Critical 
Materials Institute, an existing federal initiative related to 
mineral security.
    This morning I will devote my oral testimony to two aspects 
of the second theme of the hearing, not the critical minerals 
list, but rather, opportunities for enhancing U.S. mineral 
security.
    I begin by talking about what I think of are five essential 
roles for the Federal Government in this space and then second, 
I will talk about the Critical Materials Institute.
    So with respect to five roles for government. First, 
there's ensuring raw materials for military needs. Second, 
facilitating undistorted international trade. Third, 
establishing a regulatory framework for efficient, domestic 
development of mineral resources that appropriately balances 
national needs for minerals with environmental protection, 
worker health and safety and the interests of local 
communities. Fourth, collecting and disseminating information 
and conducting strategic analysis on which both private and 
public decisions can be made. And fifth and finally, fostering 
technological innovation through education and research 
throughout the material supply chain which, in turn, leads me 
to the second topic of my written and oral testimony, the 
Critical Materials Institute, an existing federal initiative in 
this area.
    The Critical Materials Institute, or CMI, is a multi-
institutional, multi-disciplinary consortium funded through 
Department of Energy's (DOE) Advanced Manufacturing Office and 
led by the DOE's Ames Laboratory. We're a consortium of 
national labs, universities and companies. Our mission at CMI 
is to create technological options for assuring material supply 
chains through three types of complimentary research, research 
aimed at diversifying and enhancing primary production, 
research aimed at reducing wastes through improved 
manufacturing efficiency, recycling and reuse and research 
aimed at using less by developing substitute materials for the 
critical minerals. CMI is active in all three areas. I should 
note that we are not involved in the upstream activities of 
geoscience research or mining, so we really start with mineral 
processing and extractive metallurgy.
    We just completed our first five years of activity. We grew 
out of the 2010 and 2011 DOE Critical Materials Strategy 
document. To date, our principal focus has been on rare earths 
with a modest amount of activity focused on lithium. We have 
filed 78 invention disclosures, filed 50 patent applications, 
received six patents and received two R&D 100 awards.
    We've had 12 innovations adopted by U.S. industry through 
licenses or other mechanisms. Examples include membrane solvent 
extraction for rare earth separations, 3D printing of magnets, 
rare earth magnets, cost-effective process for recycling rare 
earth magnets from hard disk drives and developing replacement 
materials for the rare earths, europium and terbium in 
florescent lighting. So a combination of, in effect, 
technological innovations to produce more, waste less and use 
less.
    As we enter our sixth year, we're excited to continue our 
work in linking early stage, applied research with industrial 
and societal needs. We're expanding our set of materials. We're 
engaging with a wider range of industrial partners. We're 
working to enhance our activities in education and training.
    In closing, let me cite, go back to a point I raised at the 
beginning, technology development is one of government's 
essential roles and the Critical Materials Institute is one 
existing federal initiative that has accelerated delivery of 
technological solutions to the marketplace.
    Thank you.
    [The prepared statement of Dr. Eggert follows:]
    [GRAPHIC] [TIFF OMITTED] T0983.008
    
    [GRAPHIC] [TIFF OMITTED] T0983.009
    
    [GRAPHIC] [TIFF OMITTED] T0983.010
    
    [GRAPHIC] [TIFF OMITTED] T0983.011
    
    [GRAPHIC] [TIFF OMITTED] T0983.012
    
    [GRAPHIC] [TIFF OMITTED] T0983.013
    
    [GRAPHIC] [TIFF OMITTED] T0983.014
    
    [GRAPHIC] [TIFF OMITTED] T0983.015
    
    The Chairman. Dr. Eggert, thank you.
    Mr. Sims, welcome.

  STATEMENT OF JIM SIMS, VICE PRESIDENT OF EXTERNAL AFFAIRS, 
                   NIOCORP DEVELOPMENTS LTD.

    Mr. Sims. Chair Murkowski, Ranking Member Cantwell and 
other members of the Committee, thank you.
    I'm Jim Sims with NioCorp Developments.
    NioCorp, we're a small business, but we're on a very large 
mission. That mission is to bring into commercial operation a 
breakthrough critical minerals mine and processing facility in 
the State of Nebraska.
    Why do I use the word breakthrough in this project? Well, 
because it's very unique. We're going to produce multiple 
critical minerals, and we're going to produce only critical 
minerals at this mine in Nebraska.
    The niobium and scandium and titanium that we're going to 
make, in addition to being critical minerals, are all used in a 
variety of commercial applications and a number of defense and 
military applications. All of those, the U.S. is overwhelmingly 
reliant on foreign nations for the supplies of each of those 
three elements.
    I would also note, I think this project is unique because 
of the way in which we've designed it to minimize and limit 
and, in some cases, eliminate planned impacts to the 
environment. I'll talk briefly about those, Madam Chair.
    Our flagship mineral is niobium. Many of you remember 
niobium, I think, on your period table from your high school 
chemistry classes. Well, you will soon.
    [Laughter.]
    Almost everybody who came to this hearing today, whether 
you came in a car or a cab or a truck or a bus or a train or 
like me, in a commercial jetliner, you experienced some of the 
benefits of niobium in the super alloys and the high strength 
steel that now goes into almost all of those vehicles and 
systems today.
    How much of that niobium that you experienced today, was 
made in the U.S.? Zero. We're 100 percent reliant on foreign 
nations for niobium. The Elk Creek project will turn that 
around. We're going to put the U.S. in a position of being a 
producer of niobium for the first time in U.S. history.
    Our second critical mineral is called scandium. It's also 
an element on the periodic table. What niobium does for steel, 
scandium does for aluminum, strengthens aluminum to a great 
degree. Scandium has applications, a variety of applications, 
in both commercial and defense. The U.S. uses it in a number of 
different military technologies.
    How much of the scandium that we use today is made in the 
U.S.? Zero. One hundred percent reliant on foreign imports. The 
U.S. will not only emerge as a scandium producer with the 
Nebraska project, the Elk Creek project, we will emerge as a 
scandium superpower. And I say that because there's only 15 
metric tons made everywhere in the world today for scandium. 
Nebraska is going to come online and make 100 metric tons per 
year.
    I think our third mineral is also important. That's 
titanium. We are about 91 percent reliant on titanium mineral 
concentrates. So we're going to help the U.S. increase our 
production of that as well.
    This is also a breakthrough of a very unique project 
because of how we've worked on the front end of the project. We 
spent a little more money, we spent a little more time to try 
to limit the environmental impacts of this project. Most mines 
of this type have to go through a number of federal permits, 
with NEPA processes. We've been able to limit our, the need for 
us to go through a lot of these because we have limited impacts 
on the front end.
    For example, we have avoided the need to go through a full 
NEPA analysis for the 404 permit that we have now in hand from 
the Army Corps of Engineers. And we did that by avoiding any 
permanent impacts to waters of the U.S. It was not easy to do. 
We had to do some metallurgical innovations that reduce the 
amount of chemicals we had to bring in. That then reduced our 
expected waste stream. It reduced the size of our tailings 
basin. It did a lot of things. It allowed us to avoid those 
impacts in the first place.
    Now not all projects are similarly situated and can do what 
we did. It makes us a little unusual. But that helps us move 
forward faster. It also reduces the risk, the permitting risk, 
that investors look at when they look to capitalize these 
projects. That helps our project go forward a lot faster.
    Finally, I just want to note in summary, Madam Chair, that 
scandium in particular, I think, is a very exciting element. It 
represents or it presents revolutionary opportunities to 
decrease the weight of automobiles, commercial airliners, in 
particular. That will increase fuel efficiency pretty 
dramatically and, of course, reduce emissions as well. We need 
more scandium. We don't have it. It's critical and strategic to 
the U.S.
    I also just want to note quickly that this project enjoys 
tremendous ``local support'' in Nebraska. That's largely due to 
our local landowners with whom we have partnerships. We're all 
on private land. We have agreements with all them for this 
project. That's usually helpful.
    Governor Ricketts has been very, very helpful, all the 
members of the Nebraska Congressional delegation, folks in the 
legislature. We just--we're gratified by that support.
    I'll also mention finally, that not only is that support 
just nice to have, it really is a requirement for a mine like 
ours to get up and running, to have that local support and 
we're glad we have it.
    Madam Chair, thank you.
    [The prepared statement of Mr. Sims follows:]
    [GRAPHIC] [TIFF OMITTED] T0983.016
    
    [GRAPHIC] [TIFF OMITTED] T0983.017
    
    [GRAPHIC] [TIFF OMITTED] T0983.018
    
    [GRAPHIC] [TIFF OMITTED] T0983.019
    
    [GRAPHIC] [TIFF OMITTED] T0983.020
    
    [GRAPHIC] [TIFF OMITTED] T0983.021
    
    [GRAPHIC] [TIFF OMITTED] T0983.022
    
    [GRAPHIC] [TIFF OMITTED] T0983.023
    
    [GRAPHIC] [TIFF OMITTED] T0983.024
    
    [GRAPHIC] [TIFF OMITTED] T0983.025
    
    [GRAPHIC] [TIFF OMITTED] T0983.026
    
    [GRAPHIC] [TIFF OMITTED] T0983.027
    
    [GRAPHIC] [TIFF OMITTED] T0983.028
    
    [GRAPHIC] [TIFF OMITTED] T0983.029
    
    [GRAPHIC] [TIFF OMITTED] T0983.030
    
    [GRAPHIC] [TIFF OMITTED] T0983.031
    
    [GRAPHIC] [TIFF OMITTED] T0983.032
    
    The Chairman. Thank you, Mr. Sims.
    Mr. Mintzes, welcome.

 STATEMENT OF AARON MINTZES, SENIOR POLICY COUNSEL, EARTHWORKS

    Mr. Mintzes. Good morning. Thank you, Madam Chair, Ranking 
Member Wyden and members of the Committee for the opportunity 
to testify before you on opportunities to strengthen the United 
States' mineral security.
    My name is Aaron Mintzes. I'm with Earthworks. We're a non-
profit dedicated to protecting communities and the environment 
from the impacts of mineral and energy development while 
seeking sustainable solutions.
    In December 2017 President Trump issued his critical 
minerals Executive Order (EO). The policy recommendations 
flowing from that EO are due on the President's desk this 
November.
    We are deeply concerned about any critical minerals policy 
that attempts to limit the scope of environmental reviews or 
undermines public input in our government's mining decisions. 
We understand the metals are important and used in the 
manufacture of items we use every day, including minerals 
needed for renewable energies. Yet, simply because we designate 
a mineral as critical does not mean we need more mining. This 
is particularly important given the harms and costs mining has 
on communities and the environment, extracting these minerals 
from mines damages water quality frequently, forever.
    Securing our supply of critical minerals, as Mr. Wyden 
noted, often has little to do with domestic mining. Supply 
chains, refining and product manufacturing occur globally. A 
number of our allied countries have both critical mineral 
supply and refining capacity. The best way to ensure a reliable 
supply of critical minerals is for Dr. Eggert's job, public and 
private partnerships, the sectors divest and research, 
conservation, recycling and substitution.
    DoD has a national defense stockpile and, of course, the 
Committee, as the Chairman noted, has passed legislation with 
provisions improving critical minerals research, recycling, 
workforce training and supply chain management.
    Securing our critical mineral supply does not require 
weakening of any of our environmental laws. Section 3(d) of the 
President's EO directs agencies toward, ``streamlining leasing 
and permitting processes.'' Permit streamlining is tantamount 
to removing environmental and community protections. We worry 
the Administration may justify limiting public comment, tribal 
consultation, environmental study and judicial review because 
critical minerals have defense or other important applications.
    The Administration has added to these concerns with the 
Critical Minerals Secretarial Order and CEQ's proposed NEPA 
regulations revisions. For nearly 50 years, NEPA, the National 
Environmental Policy Act, has provided certainty and 
predictability through a transparent process well understood by 
governments, permit applicants and affected communities. It 
ensures that Americans can take part in the review and 
development of projects affecting our social, economic and 
environmental health and it works. That's what Mr. Sims just 
said, it works. Public input has improved agency consideration 
of project alternatives and resulted in better environmental 
outcomes. Ultimately, NEPA is a source of strength and 
predictability. It helps lay the foundation for a mining 
company's social license to operate which gives domestic mining 
a distinct competitive advantage.
    Other nations like China, without this longstanding 
commitment to public input in mining decisions, remain 
relatively undesirable destinations for mining investment. NEPA 
lowers investment risk as compared to jurisdictions without a 
similar public outreach process. Limiting NEPA or reducing 
meaningful public participation could actually undermine 
investment by revoking the industry's social license to 
operate.
    Existing law already creates the kind of regulatory 
certainty mining companies seek. Mining is risky and mining 
companies crave that certainty. The 1872 Mining Law statute is 
still on the books from our Manifest Destiny era of westward 
expansion, still governs domestic mining. Under the 1872 law 
Americans have no choice in balancing mining with any competing 
land use. Federal land managers have little or no discretion 
with whether to permit a mine. And so, if a permittee seeks 
certainty on public lands, it doesn't get much more certain 
than that.
    Besides, any critical mineral policy must also link with 
our rapid transition to 100 percent renewable energy. Critical 
minerals play an important role in our nation's emerging 
renewable energy industry and responsible sourcing of these 
minerals means clean energy can truly be clean.
    Mining companies interested in getting on the ground floor 
and making clean energy clean may seek certification with the 
Initiative Responsible Mining Assurance, or IRMA, a multi-
stakeholder mining certification that improves social and 
environmental performance and creates value for mines. The 
voluntary IRMA process provides investors, governments and 
mining impacted communities with a seal of approval that 
follows responsible practices. The standard is iterative, can 
be adapted to incentivize from the waste management practices 
that capture some of the byproducts on the critical minerals 
list. The private sector can help drive innovation. Honda 
expects to recycle 80 percent of their rare earths from some of 
their batteries, Siemens plans to recycle rare earths from some 
of their electric motor vehicles, and Congress and the 
Administration should focus their efforts on increasing funding 
research for the Critical Materials Institute. West Virginia 
has developed a pilot project that designed to harvest rare 
earth minerals from waste piles generated during abandoned coal 
mine reclamation.
    Finally, conservation, efficiency, recycling, substitution 
will each do more to ensure available supply of critical 
minerals than any policy that limits community input in mining 
decisions. The United States should embrace innovation, demand 
best practices and lead the world in responsibly securing our 
critical mineral supply while protecting our precious water 
resources.
    Thank you.
    [The prepared statement of Mr. Mintzes follows:]
    [GRAPHIC] [TIFF OMITTED] T0983.033
    
    [GRAPHIC] [TIFF OMITTED] T0983.034
    
    [GRAPHIC] [TIFF OMITTED] T0983.035
    
    [GRAPHIC] [TIFF OMITTED] T0983.036
    
    [GRAPHIC] [TIFF OMITTED] T0983.037
    
    The Chairman. Thank you, Mr. Mintzes.
    Ms. Sayer, welcome.

         STATEMENT OF LAUREL SAYER, PRESIDENT AND CEO, 
                     MIDAS GOLD IDAHO, INC.

    Ms. Sayer. Chairman Murkowski and Senator Wyden and 
distinguished members of the Committee, my name is Laurel Sayer 
and I am President and CEO of Midas Gold Idaho. I appreciate 
the chance to come before you today to talk about our project, 
the Stibnite Gold Project.
    Once permitted Stibnite will be a producer of both critical 
minerals and precious metals. We will also restore a historic 
mining legacy site and provide jobs in rural Idaho.
    During World War II, Stibnite was essential for the war 
effort and produced more tungsten and antimony than any other 
mine in the U.S. and through on until the end of the Korean 
War. Both were critical minerals for defense. Ninety percent of 
the domestic antimony output and 40 percent of the domestic 
tungsten came from Stibnite, Idaho. However, operations at 
Stibnite did not go through the rigorous regulatory oversight 
and the site was left abandoned and in need of repair. This is 
where we come in.
    Midas Gold has identified 4.5 million ounces of gold and 
100 million pounds of antimony reserves remaining at Stibnite. 
In September of 2016 we delivered a Plan of Restoration and 
Operations, or PRO, to the Forest Service, our lead agency, to 
begin the NEPA permitting process. We designed the PRO with 
final closure in mind to ensure that the ESA-listed fish are 
reconnected to native spawning grounds that have been blocked 
for 80 years.
    The PRO will remove, reprocess, repurpose and safely store 
millions of tons of spent ore and tailings left by prior 
operators and also repair the largest source of sedimentation 
in the East Fork of the South Fork of the Salmon River. The PRO 
laid out this radical idea that mining could be used to restore 
the environment.
    We spent well over $20 million developing this plan right 
here which was summarized in a 486-page PRO and provided the 
regulators 21,564 pages, or 2.3 gigabytes, of data. Our initial 
planning was exhaustive.
    The Forest Service must approve our plan of restoration and 
operations and review the project impacts pursuant to NEPA. And 
as you can see from our visual, we must receive over 50 permits 
and approvals before we can begin construction and operation.
    My testimony is not to be misunderstood as advocacy for any 
weakening of environmental laws that play a part in permitting 
our project; however, since delivering our plan to the 
regulatory agencies almost two years ago, we have spent an 
additional $4 million paying for a Forest Service project 
manager and their third-party contractor. And in the last two 
years we spent $11 million on meeting those additional demands 
related to permitting.
    The Committee can see from this visual, how far we have 
gone under NEPA and where we have left to go. Our NEPA schedule 
has slipped three times.
    Each quarter that we fail to meet our deadline costs us 
$1.5 million in permitting costs payable to the Forest Service 
and their contractor and another $2.6 million for our personnel 
and consultants. To date, we have invested $36 million in 
presenting our project to regulators and responding to their 
queries. And yet, we are still two years away from publication 
of a Record of Decision (ROD). At the current rate of 
expenditure, the amount will almost double before a ROD is 
issued. These are substantial costs to incur even before a 
shovel goes in the ground.
    Neither Congress in the original Act nor courts which have 
reviewed NEPA challenges require perfection. The hallmark of 
NEPA review is that federal agency decision-makers should have 
before them a reasonable amount of information to make a 
reasonably informed decision. There are steps that can be taken 
to make this process work better.
    The Federal Government should bring everyone around the 
same permitting table, including the applicant, but often this 
is not the case and a simple example illustrates this. Our 
regulators wanted us to analyze an alternative location for our 
tailing storage facility which request the Forest Service 
communicated to us. We spent considerable time and dollars 
internally and externally with consultants to evaluate the 
alternate location, prepare a written report and analysis and 
then submitted it to the agencies. We later found out that the 
original requesting regulator was talking about a different 
location and the whole process had to be repeated. If we are in 
the same room working together many unrealistic, uneconomic or 
technically infeasible project alternatives can be quickly 
eliminated saving everyone time and money.
    The same holds true with ESA. The earlier project 
proponents and federal agencies can resolve issues before they 
become a problem. We are, as a Fish and Wildlife official told 
me, would be smart from the start.
    Madam Chairman and distinguished members of this Committee, 
we will clean up the Stibnite site as we execute our PRO and 
leave this magnificent part of our state better off. It's the 
right thing to do because we are blessed to live and work in 
our beautiful home State of Idaho, and we want to keep it that 
way, so does our state legislature and a joint resolution 
supporting our project is attached to my testimony.
    Again, I do not advocate for overlooking any required legal 
element of environmental review or reducing standards but 
future employment of Idahoans and environmental restoration 
hinges in the balance with each passing day while our project 
is undergoing environmental review.
    Permitting can always be more efficient which is what we in 
the mining industry believe Congress intended in the first 
place through its environmental laws.
    Thank you.
    [The prepared statement of Ms. Sayer follows:]
    [GRAPHIC] [TIFF OMITTED] T0983.038
    
    [GRAPHIC] [TIFF OMITTED] T0983.039
    
    [GRAPHIC] [TIFF OMITTED] T0983.040
    
    [GRAPHIC] [TIFF OMITTED] T0983.041
    
    [GRAPHIC] [TIFF OMITTED] T0983.042
    
    [GRAPHIC] [TIFF OMITTED] T0983.043
    
    [GRAPHIC] [TIFF OMITTED] T0983.044
    
    [GRAPHIC] [TIFF OMITTED] T0983.045
    
    [GRAPHIC] [TIFF OMITTED] T0983.046
    
    [GRAPHIC] [TIFF OMITTED] T0983.047
    
    [GRAPHIC] [TIFF OMITTED] T0983.048
    
    [GRAPHIC] [TIFF OMITTED] T0983.049
    
    The Chairman. Thank you, Ms. Sayer.
    Mr. Gregory.

             STATEMENT OF GREG GREGORY, PRESIDENT, 
                   MATERION NATURAL RESOURCES

    Mr. Gregory. Good morning, Chairman Murkowski, Senator 
Wyden and distinguished members of the Committee.
    Thank you for inviting me to participate in this hearing on 
the Department of the Interior's Final List of Critical 
Minerals.
    My name is Greg Gregory. I am President of Materion Natural 
Resources, and I work in Utah at the only domestic mine for 
production of beryllium.
    My parent company, Materion Corporation, is a publicly 
traded company founded in 1931 and headquartered in Cleveland, 
Ohio, with 2,600 employees and 33 locations worldwide. In 
addition to mining and refining beryllium, Materion works with 
25 of the 35 critical minerals listed by the Department of 
Interior.
    Materion products are used in everything from delicate 
sensors found in medical devices and implants to the harsh 
environments found in mining and oil and gas exploration.
    The product we're known for, beryllium, is the only mineral 
listed by the Department of Defense as both strategic and 
critical.
    Materion strongly urges a whole of government policy 
approach to the issue of minerals and material security. We 
also recommend that the government encourage production from 
domestic sources by buying American critical minerals and 
components made from American critical minerals, especially in 
the defense and nuclear supply chains.
    These policies broadly align with initiatives already 
approved or under consideration within the Executive Branch. 
Senior government officials consistently understand the need 
for a secure, affordable supply chain for strategic and 
critical minerals such as beryllium but the lack of a clear 
governmentwide policy concerning critical minerals has, at 
times, led to mistakes at the operational levels that have 
threatened success of the broader strategy.
    Beryllium, a space-age metal that is very strong and light 
with unique properties, enables high-tech military sensors, 
nuclear devices, mammography imaging and computers to name a 
few.
    My company operates the only mine-to-mill supply chain for 
beryllium in the world and is the only company that can say its 
beryllium products are fully made in America.
    For beryllium metal or high beryllium content materials, 
the market is driven primarily by government-funded 
applications. For low beryllium content materials such as 
copper-beryllium alloys, the markets are driven primarily by 
commercial applications. The two sides of our businesses are 
closely related.
    Materion is glad the government has taken steps to secure 
beryllium supplies including the creation of the Pebble Plant 
in Ohio.
    Between 2005 and 2011, Materion partnered with the 
government through the Defense Production Act Title III Office 
to build the first beryllium metal production facility in the 
United States in more than 50 years. Materion continues to work 
with the government, especially within the Departments of 
Defense and Energy, to ensure that beryllium remains available 
for government needs.
    The successful mine-to-market strategy shows how a 
government program can successfully identify and address a 
materials vulnerability and turn it into a source of strength 
for the American military and for American industry.
    With that being said, we see several challenges in critical 
minerals policies, especially for beryllium. Regulatory 
initiatives in Europe and the U.S., such as the 2017 OSHA 
standard, continue to threaten Materion's ability to produce 
beryllium. The OSHA standard was recently revised pending final 
rulemaking following litigation brought by Materion and other 
groups, but we remain concerned until the rule is completed.
    Within the Department of Defense, which generally 
recognizes the importance of a secure beryllium supply chain, 
there are individual program offices that undermine the 
Department's overall strategy by trying to source beryllium 
from non-allied, foreign sources. These regulations and 
procurement decisions do little or nothing to improve safety, 
but they will have significant effects on security for the U.S. 
military and the wider U.S. industrial base.
    Critical minerals, such as beryllium, are key to both 
economic and military strength. A whole of government approach 
to security of supply, including a review of regulatory 
policies, domestic sourcing legislation, investment in critical 
in item uses and industrial technologies should be considered 
to ensure access to these minerals in the future.
    Materion is glad to see that both Congress and the 
Administration are engaging with these concerns in a realistic 
and forthright manner and we look forward to supplying the U.S. 
Government and consumer needs for years to come.
    Thank you and I look forward to your question.
    [The prepared statement of Mr. Gregory follows:]
    [GRAPHIC] [TIFF OMITTED] T0983.050
    
    [GRAPHIC] [TIFF OMITTED] T0983.051
    
    [GRAPHIC] [TIFF OMITTED] T0983.052
    
    The Chairman. Thank you, Mr. Gregory, and thank you, each 
of you for your comments this morning. Good panel.
    Dr. Fortier, let me begin with you.
    You have indicated that when the list was put together that 
it was a cooperative collaborative. You had, obviously it is 
USGS, BLM, you have the interagency which, I think, is 
important. I further understand that there is to be a report, 
basically an action report, that will be delivered to the 
President in August. Is that correct?
    Dr. Fortier. I believe the date is now September.
    The Chairman. September.
    Dr. Fortier. Yes.
    The Chairman. Okay, so we are pushing the date back.
    My question to you is, we now have a list.
    Dr. Fortier. Yes.
    The Chairman. There are some who argue that the list isn't 
comprehensive enough. They did not get their mineral on. Some 
have generated a little bit of controversy. Uranium is clearly 
in that category.
    But a couple questions. Is this a list that will evolve? In 
other words, will we see updates to the list? What can we 
expect out of this action report?
    Because it is one thing to have a list, and I want to talk 
about whether or not there is an advantage to being on the list 
if you are designated as a critical mineral, but what is the 
process going forward and what might we expect in September in 
terms of action plan?
    Dr. Fortier. Yes. Well, to address your first question 
about whether the list is final. It is not our intention to put 
out a list that is final. It's final for this first phase, but 
the intention is to revisit this periodically. The mineral 
criticality is----
    The Chairman. Like annually or----
    Dr. Fortier. We haven't decided on the exact timing yet. 
So, we update the NSTC screening methodology annually. The 
Europeans update their critical mineral list every three years. 
So there are different schools of thoughts about how you should 
approach this.
    The Chairman. Yes.
    Dr. Fortier. We haven't agreed on that yet.
    But this is an issue that does evolve as our import 
reliance changes, as country concentration changes. We need to 
take those factors into account as well as additional, new 
applications. So it's not a static process. It will be renewed 
periodically.
    You know, in terms of the next steps and what is to come 
out of this effort. The Department of Commerce is leading the 
effort to develop a full report to comply with the different 
directives in the Executive Order that will address all the 
different aspects of critical mineral issues and strategies, 
including trade with reliable partners, options for 
substitution, needs for improved recycling, the improvement of 
the U.S. mapping of the geology and geophysics and topography 
of the United States, as well as addressing permitting issues. 
So the report is intended to lay out options for the 
Administration to consider to address these perceived strategic 
vulnerabilities that are at risk.
    The Chairman. Let me ask then about that and recognizing 
that it is not just identifying the minerals, it is looking to 
those technologies that can allow for a level of reuse or 
alternatives. It is the whole package.
    The Critical Minerals Institute that Dr. Eggert is involved 
with, do you derive good benefit from the research that comes 
from them?
    Dr. Fortier. Yes, they clearly are focused on a different 
part of the supply chain than the USGS is. We're more focused 
on mining and mineral processing, but it's complementary.
    The Chairman. And that is, I mean, looking at what the 
mission and Dr. Eggert, what you have outlined, it seems that 
within DOI there is a clear understanding. We have a 
vulnerability when it comes to our critical minerals. We need 
to identify them. We need to have an action plan. We need to 
work on certain aspects of permitting and you have that view.
    Within the Department of Energy, here is a very real role, 
and yet I understand that in the 2019 budget request the 
Administration intends to eliminate the funding and ultimately 
close the Critical Minerals Institute at DOE. Do we have a 
disconnect between what is going on in DOI and DOE, Dr. Eggert?
    Dr. Eggert. There are competing proposals, I think it's 
fair to say.
    As I understand it, as you say, the President's request 
zeros out the Critical Materials Institute but my understanding 
also is that both versions of the Energy et cetera minibus, 
both the House and the Senate, include another year of funding 
for the Critical Materials Institute----
    The Chairman. I appreciate that. It sounds like a very 
politically correct answer.
    But I guess I want to know that we are doing this on all 
fronts because as we develop this strategy and really a whole 
of government approach, which I think is the right approach, 
involve everybody because it goes across agencies. Ms. Sayer 
has indicated the issues that she has working with Forest 
Service. Mr. Gregory, you are with the Department of Defense. 
We all have to be in this together.
    Senator Wyden is very concerned on the trade in the 
commerce side of it. But it seems to me that we clearly have an 
application for the research and development that will go on. 
We will not be able to produce everything on our own. So, how 
we can reuse, how we can just be smarter with that, I think, is 
something that we should focus on.
    Let me turn to Senator Wyden.
    Senator Wyden. Thank you very much, Madam Chair.
    Dr. Eggert, let me start with you.
    As I indicated, a few years ago, Senator Murkowski and I 
had a bipartisan bill and it was good for industry, it was good 
for companies as it related to supply, and it didn't unravel, 
for example, protection for water and communities and places 
that would get hurt by reckless policies. Right now, the 
Administration is looking at policies that move us away from 
both of those objectives, particularly on the issue of tariffs.
    What I have always said is they ought to be part of the 
trade tool kit, but they have to make sense. It seems to me the 
President now is embarking on shooting American manufacturers 
in the foot by arbitrarily imposing tariffs on the raw 
materials that our companies need. For example, this month the 
Administration proposed $200 billion in tariffs on China, 
including virtually all critical materials. In your view, what 
kind of effect would that have on the ability of our companies 
to get access to the materials they need to be in the 
manufacturing business?
    Dr. Eggert. Clearly, imposing tariffs on imported 
intermediate products containing critical materials will 
increase costs for U.S. manufacturers which, for those that 
compete in international markets, will reduce their 
competitiveness.
    Senator Wyden. So it would be your view, having looked at 
this, and you are an economist so you do this for a living, 
that the Trump approach is going to harm the ability of 
American manufacturers to compete against others around the 
world who do not have tariffs imposed on their raw materials?
    Dr. Eggert. As I've testified previously and again today, 
I'm a strong proponent of undistorted international trade and 
multilateral approaches toward reducing tariffs.
    Senator Wyden. So, is that a yes?
    I mean, I am talking about being able to tell an American 
company, and I have consistently been for trade. One out of 
five jobs in my state revolves around trade. The trade jobs 
often pay better.
    But I am not for ill-advised policies. I think these 
tariffs are. Yes or no, will these tariffs hurt the ability of 
our U.S. companies to compete with people around the world who 
do not have tariffs imposed on their raw materials? I think 
that is a yes or no.
    Dr. Eggert. Well, the answer is yes.
    Senator Wyden. Okay, thank you.
    Let me ask you one other question with respect to Chinese 
market manipulation of the market for rare earths, because this 
has already been shown to wreak havoc on our production.
    Mountain Pass, a rare earth mine in California with the 
potential to reinvigorate U.S. rare earth production, had to 
declare bankruptcy in 2015 and they were basically put out of 
business because of Chinese market manipulation. This was a 
mine that was relicensed. It met the Murkowski-Wyden objective, 
our lodestar. It met the U.S. environmental standards, and we 
showed production and environmental protection are not mutually 
exclusive. Now Mountain Pass has been bought by a Chinese 
company which is going to control production.
    What effect would a mine like Mountain Pass have on U.S. 
domestic production if it really got to operate in a free and 
undistorted market?
    Dr. Eggert. Two quick responses.
    One, Mountain Pass could be an important starting point to 
reestablishing a U.S., or at least North American, supply chain 
for rare earths.
    Second, I think it's incorrect to say that it was purchased 
by a Chinese company. That Chinese company has, I think, eight 
or nine percent ownership of the equity in the company, but 
it's a non-voting----
    Senator Wyden. So who is going to control production?
    Dr. Eggert. It will be the owners overall, the vast 
majority of which is non-Chinese.
    Senator Wyden. Alright.
    So you think Mountain Pass though, from the standpoint of 
the U.S. domestic market, really could make a difference in 
terms of rejuvenating a free and undistorted market?
    That is my basic, kind of----
    Dr. Eggert. It could be a very important starting point, 
yes, for an extensive supply chain of rare earths.
    Senator Wyden. Well, I want it understood that I also 
consider Chinese market manipulation to be a serious problem, 
and I will look forward to continuing that discussion with you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Wyden.
    Senator Daines.
    Senator Daines. Chair Murkowski, Senator Wyden, thank you 
for holding this hearing.
    I am going to start this conversation by showing you my 
iPhone. Many of the minerals that we are talking about here 
today can be found in everyday devices like an iPhone. In fact, 
many of them we are 100 percent dependent on.
    For example, manganese, tantalum, vanadium, gallium, all 
100 percent dependent on imports; bismuth, 96 percent; 
tungsten, 50 percent. The point is these minerals are critical 
for our consumer economy. They are also critical for our 
defense industry. I will talk about that more later.
    In fact, when we talk about renewable energy, we often 
forget what it takes to develop energy storage for renewables. 
Critical minerals in battery storage technology: manganese, 100 
percent dependent on imports; indium, 100 percent; cobalt, 72 
percent; aluminum even, 61 percent.
    We talk in this Committee a lot about reducing our 
dependence and our allies' dependence on Russia and other 
countries for oil and natural gas, but I believe we are not 
focusing enough on our dependence on critical minerals.
    I gave the examples of my phone and energy storage, but it 
also affects our defense infrastructure. In fact, missile 
defense, aircraft, communications technology, even ammunition, 
all contain these critical minerals. It is important that we do 
not have to rely on Russia and on China for minerals and 
materials, that we can produce them right here in the United 
States, including my home State of Montana.
    This is not only a major national security issue but also 
has environmental consequences. Many states in the U.S., like 
Montana, have tough, and rightfully so, environmental standards 
leading to the cleanest and safest mining industry in the 
world. However, other countries do not have these same 
standards. I lived in China for five and a half years working 
for Proctor and Gamble. I saw it firsthand. These countries are 
not known for their regard for the environment. In fact, I have 
a chart right here that shows globally-sourced mineral 
commodities used in the Navy Seal gear. Whether it is night 
vision goggles or there are global positioning systems, whether 
it is their M4 carbine, they are all right here. In fact, it 
takes me back to my days studying as a chemical engineer. It 
gives you the periodic charts here again. It is kind of nice.
    Let me start by asking Mr. Sims a question.
    Do you agree the U.S. has better mining practices than 
countries like China, India, Rwanda, Russia and South Africa?
    Mr. Sims. Senator, I haven't done mineral development in 
any of those countries. I focus my efforts here in the states. 
I think it would be hard to argue, however, that the U.S. 
generally does not have stricter environmental laws, stricter 
environmental practices and processes that we have to go 
through to get permits.
    And it's also important, as I mentioned in my testimony, to 
have support from the local community in which you intend to 
operate. If you don't have, sometimes we call it a social 
license to operate, if you don't have that, you've got a lot of 
problems.
    So I think the U.S. is the best place in the world to do 
mineral development in terms of the resources we have. It is 
difficult and it does take probably longer to go through the 
permitting processes for some mines. It's not the case for us, 
but for many it is.
    There's another side of that coin and that is that you have 
to go to a really high level in order to earn those permits. 
That's probably a good thing.
    Senator Daines. So we are going to talk about the other 
side of that coin here next.
    I have a question of Ms. Sayer.
    As you describe, the lengthy permitting battle your company 
is going through, it reminds of projects in Montana like Rock 
Creek and Mountain Ore that have invested millions of dollars, 
a decade of work and are still are not approved to begin 
mining. These are locally supported. I can't tell you how much 
the local community is pleading for this permitting to be over 
with. This is up in the northwest corner of my state.
    In fact, I had dinner with a family several years ago that 
said, Steve, this is poverty with a view. It is beautiful 
country, but we lack the jobs. High unemployment rates, lost 
our tax base, can't fund our teachers, schools and 
infrastructure. These are locally supported, scientifically 
driven, and would bring huge economic benefits while also 
making the United States more secure. However, we are seeing 
huge delays. And even when the permits are given, we have to 
deal with lengthy litigation from these fringe, extreme 
environmental groups.
    Ms. Sayer, what could Congress or the Administration do 
today to speed up safe, locally supported mining projects?
    Ms. Sayer. Thank you, Senator.
    Yes, I believe that the single most thing that we could do 
would be to let the applicant proponent in the room.
    I testified earlier that we have gone through mountains and 
piles of money as we have one, as we have stood outside the 
door and slipped notes underneath the door to our federal 
agencies answering their questions, where if we could be in the 
room, if we could, if they could give us a phone call, if we 
could discuss issues and we could sit around a table and 
discuss the issues, answer their questions, we would be much, 
it would move the process forward much quicker.
    We have gone through a process of RFAIs, which is Requests 
For Additional Information. We have--the Forest Service has 
sent us requests, over 100 of them. I have a whole list of them 
right here. They have sent us these requests. They send it. It 
takes a week to get the request in writing. We respond and then 
they say, no, that really isn't the question we asked. Could 
you answer it this way or this way? And then we respond. Where 
if we were in the same room, instead of outside the door, and 
we could be there and talk directly with them and answer the 
questions. We're not asking for a decision. We're not asking 
for collusion or anything like that. We just need to answer the 
questions. We're the ones that have invested the $20 million in 
the project, we have gone and analyzed every possible 
alternative we could, so we're the experts on our project. So 
being able to be in the room because we, as well in Idaho, have 
a strong social license.
    Senator Daines. That sounds like a pretty reasonable ask, 
Ms. Sayer.
    Thank you.
    The Chairman. Thank you.
    Senator Manchin.
    Senator Manchin. Thank you, Madam Chairman, and thanks to 
all of you for being here today.
    I was very pleased to see last December when President 
Trump issued Executive Order 13817, which is a federal strategy 
to secure monopoly supplies of critical minerals. The fact that 
China maintains a near monopoly on the critical components 
needed for our defense system is beyond comprehension, and the 
ramifications of their dominance of this industry could have 
widespread implications.
    Let me give you a few figures that I have and see if you 
all have any comments on them.
    The nation experienced the danger of such extensive foreign 
dependence when China began reducing its exports in 2006. The 
average cost of rare earth imports from China rose 2,432 
percent from 2002 to 2011 and by 723 percent in 2011 alone, and 
demand is still increasing. In 2017, the value of rare earth 
compounds and metals imported by the United States increased by 
27 percent.
    What I am getting to is that we have been, for the last 
seven, eight years at WVU, NETL, the National Energy Technology 
Lab, have been--we have already mined the coal. We already have 
the waste products and all the responsibilities we have 
environmentally to clean this up. Knowing that we can extract 
these rare earth minerals from something we have already done 
is what they have been testing.
    Today or tomorrow, they are going to host a ribbon cutting 
ceremony to commission its pilot scale separation plant for 
rare earth elements from coal and coal byproducts such as acid 
mine drainage from the Appalachian Basin.
    There is so much more that we can be doing and, speaking 
hypothetically, can you describe for the Committee what we 
could expect to happen should the Chinese decide to place a 
choke hold, not even wanting to sell it to us, just basically 
through these so-called trade wars we might be entering into, 
how that would impact everyday consumers across the country and 
in my State of West Virginia?
    Whoever wants to start can start, and we will chime right 
in.
    Dr. Eggert.
    Dr. Eggert. A trade war would be unfortunate to say the 
least.
    Senator Manchin. I mean, they have a big chunk of a 
bargaining tool right now if they want to use it. Correct?
    Dr. Eggert. Absolutely.
    Senator Manchin. What does it do to the tax?
    Dr. Eggert. More tariffs or a cutoff would have significant 
negative consequences for U.S. users. One hopes that U.S. users 
have working inventories that appropriately reflect the supply 
chain risks that they face at the moment.
    In the private sector, there would be negative----
    Senator Manchin. Would it be devastating to our defense, 
for our Defense Department? We rely on so much of this.
    Dr. Eggert. Clearly, there could be implications for our 
military and essential civilian needs. I know there is a 
portion, there are people within DoD, that focus on raw 
material security and I have to say, I don't know the details.
    Senator Manchin. Okay. Dr. Eggert, maybe, Mr. Gregory, I am 
sorry.
    Mr. Gregory. Thank you for the opportunity. You could see 
me sit up.
    I come from a family with a long history of military 
service and, in fact, I have family members in the service 
today. Since the conflict started in Afghanistan and Iran, I 
can't remember a time when we didn't have family members on the 
ground.
    I feel very passionately that those soldiers that are 
representing us overseas and protecting us, who deserve the 
best systems possible, and when the ability to provide those 
systems to our soldiers is jeopardized, that's a travesty. We 
need to secure the supply of critical minerals so our soldiers 
have the best systems available to keep them out of harm's way.
    Thank you.
    Senator Manchin. Mr. Mintzes, is it Mintzes?
    We might not always agree on a lot of things coming from 
our backgrounds.
    [Laughter.]
    But with that----
    Mr. Mintzes. We might agree on one thing.
    Senator Manchin. Yes, I am sure.
    But with that being said, since we mined the coal, we have 
the deposits. We have the ability to clean up the environment.
    Would you all be supportive of doing everything that we can 
to utilize this to try to produce our own minerals, our own 
rare earth minerals?
    Mr. Mintzes. Thank you for that question, Mr. Manchin.
    So I want to be agnostic about any particular kind of--on a 
case-by-case analysis.
    Senator Manchin. Sure.
    Mr. Mintzes. But the principle that you talk about, 
absolutely.
    I'd like to just make a quick distinction because in the 
coal context the statute of the government's coal, this SMCRA, 
has a dedicated funding stream that provides resources for 
Reclamation.
    We don't have that in the hard rock mining industry. The 
1872 mining law has no Reclamation fee.
    And so, we in principle without----
    Senator Manchin. Western states were better at lobbying 
than we were.
    [Laughter.]
    Mr. Mintzes. I can imagine that.
    So my point is that we, in principle and on a case-by-case 
basis, the idea that we could use, for example, SMCRA funds in 
partnership with DOE and come up with these public-private 
partnerships that we've been discussing in order to reclaim 
some of the rare earth minerals or critical minerals from the 
coal is----
    Senator Manchin. The environmental community would be open 
to trying to work in collaboration?
    Mr. Mintzes. I want to be very careful, and it's possible, 
yes. We can work together on this.
    Senator Manchin. That is a positive.
    Thank you, sir.
    The Chairman. I think you have a possible there. There you 
go.
    Senator Lee.
    Senator Lee. Thank you very much, Madam Chair. Thanks to 
all of you for being here.
    Mr. Gregory, it is good to see you. I want to thank you for 
all you do in Delta, Utah, where you provide the only domestic 
source of beryllium which is important for so many different 
reasons and so many different applications.
    It seems to me that there are so many minerals on the list, 
not just beryllium but including beryllium, that happen to be 
found disproportionately in rural areas of the country. But we 
have seen intense regulation from Washington suffocating many 
of these same rural communities where a lot of these minerals 
are found. And we have seen a lot of industries, including 
mining, including logging, that depend on federal land, being 
hurt.
    Can you explain the impact of your operation in Delta and 
on the surrounding communities and how they have come to depend 
on you?
    Mr. Gregory. Thank you.
    The leverage of mining and job creation in small rural 
communities is truly amazing.
    Our mine in Delta is a small mine. It provides 80 full-time 
jobs, good-paying jobs with good benefits, that are very 
important to a rural community such as those found in Millard 
and Judd Counties where we operate.
    On top of that, depending on the development effort going 
on at the mine, we may have as many as 100 additional 
contractors working. So you're talking 180 contractors.
    The material we mine is shipped to our plant in Ohio, 
another plant with 600 employees that converts that to 
additional materials. Materials from that plant support plants 
in Arizona, in Pennsylvania, California and multiple other 
locations, eventually supporting 2,500 jobs within our company.
    We have partners that we work with that have capabilities 
or help us to expand our capacity which easily doubles that 
number to, now you're talking 5,000 people. We have our 
customers, and our customers take that material, convert them 
to parts. We're third tier suppliers, so our material goes to 
an additional customer who makes a part. Again, you're doubling 
that number. And then, that number goes to a final manufacturer 
who is going to assemble that. If a person, if a company, is 
going to buy material sourced outside of the United States, 
they're not going to import that mineral and produce it in the 
United States. They're going to buy the finished product from 
overseas. And so all those jobs would be outside the United 
States.
    Thank you.
    Senator Lee. Right.
    So there may be more than meets the eye, a lot more than 
meets the eye, in this case and so many like it.
    Mr. Gregory. Yeah, right.
    Senator Lee. Is there a type of regulatory reform that you 
would like to see that would help to facilitate the 
exploration, development, and mining of things like beryllium 
to provide sustainable economic opportunities for communities 
like yours?
    Mr. Gregory. Yeah, we are very fortunate in Materion that 
we own our own property. We were able to obtain that property 
through a mutually beneficial land swap with the Federal 
Government, the state and we own our surface rights.
    We also, the state maintains the mineral rights. We pay 
royalties that go to the state investment land trust which 
basically ends up in the school systems and education in Utah. 
Married to a teacher, that's very important to me.
    A fair and stable permitting process is all the mining 
industry really asks for. The difficulty we have as an industry 
is when the rules keep changing. And so, that would be my main 
request is a fair, stable process.
    Senator Lee. So you don't have a moving target. That 
doesn't seem like too much to ask.
    Dr. Fortier, at a hearing before this Committee in March of 
last year, Dr. Murray Hitzman from USGS testified that much of 
the United States has not been mapped to a scale that is useful 
for potential mineral development. The President's Executive 
Order specifically tasks agencies to develop a plan to improve 
geologic mapping of the U.S. to support mineral exploration. 
Can you give us a progress report on that?
    Dr. Fortier. Yes, the Mineral Resources Program at USGS has 
written a report for Secretary Zinke and submitted that to the 
Department.
    That plan would detail the process by which we would 
implement the plan to improve our topographic, geologic, and 
geophysical survey of the United States at the appropriate 
scale that would support the exploration for critical minerals 
as well as the development of other important natural resources 
such as groundwater and energy and other societal needs.
    So that plan is well advanced and has gotten interagency 
input from the agencies involved in offshore resources and is 
also part of the report that will be submitted in response to 
the Executive Order of which it is an important piece.
    Senator Lee. Thank you.
    I see my time has expired. Thank you, Madam Chair.
    The Chairman. Thank you, Senator Lee.
    Senator King.
    Senator King. Thank you, Madam Chair.
    Mr. Fortier, how did we get here?
    In 1978, we had 7 critical minerals that we were totally 
dependent upon other sources and now we are at 21. What forces 
made that change over the last 40 years-50 years? 40 years?
    Dr. Fortier. I'm not sure I can comment directly on the 
societal forces that resulted in this. Our role at USGS is 
simply to document this process, and we have been doing that 
for more than 100 years.
    USGS----
    Senator King. Perhaps I should direct the question to Dr. 
Eggert then.
    What made us triple the number of 100 percent dependent 
minerals? Do you have any ideas?
    Dr. Eggert. Well clearly, multiple forces are at work. 
There's no single explanation.
    A significant factor is simply globalization and increase 
in demand for many of these materials, often significant 
increases in demand and significant demand in many parts of the 
world and opportunities outside of the United States that would 
have been off limits previously, became attractive because of 
changing political circumstances----
    Senator King. So there is no single factor.
    It is interesting you haven't mentioned regulation in the 
United States as one of the factors.
    Let me follow up. Your testimony said something, and I 
think it is very important--and I apologize for missing the 
beginning of the meeting. I don't know if it has come up. You 
make a distinction between imports from any source and risky 
sources. Expand on that.
    In other words, it is not imports that are necessarily the 
problem. It is imports from places that are at some risk of 
either price gouging or cutting off our supply. Is that 
correct?
    Dr. Eggert. That's absolutely correct.
    And I didn't talk about it in my oral remarks, but in my 
written comments I make the statement, something like, import 
dependence by itself is an incomplete, and many times, 
misleading or sometimes misleading indicator of vulnerability.
    Senator King. So if we are talking about legislative 
solutions to this problem, we should really narrow the focus to 
those minerals, not all import dependent materials, minerals, 
but those minerals that come from a source that is at risk for 
some reason. Is that correct?
    Dr. Eggert. If I were able to dictate policy, yes, I'd have 
a narrower focus and import dependence would be one of several 
factors I would consider.
    Senator King. Thank you.
    Mr. Mintzes, we have not talked about mining recyclables. 
Isn't that an opportunity here? All these materials that we are 
talking about are in objects that end up in the waste stream at 
some point. Is this an opportunity to, in effect, mine the 
materials that were already here in the country?
    Mr. Mintzes. Thank you, Mr. King for that question.
    Yes, we believe that one of the main solutions to this is 
not necessarily more mining, but really is reusing or recycling 
or substituting for many of the materials we already have.
    Senator King. So that is an opportunity that also has to be 
considered as we are looking for options here.
    Ms. Sayer, you were talking about regulatory impediments 
like time and money. I agree with that, having been a developer 
myself in a former life. On the other hand, if we are going to 
relieve regulatory burdens in the case of particular minerals, 
it should be narrowly focused, should it not?
    In other words, I think that what some folks are concerned 
about is that this will be, kind of, a Trojan horse for opening 
up regulation of mining, generally, of any mineral, not 
necessarily a critical mineral. I just see from your testimony 
a way to narrow this (a) from risky sources--that eliminates a 
significant portion--and then (b) those that are truly 
critical, that we can't get from other sources. Your thoughts 
on that?
    Ms. Sayer. You know, I can only speak to what we do on our 
project here in Idaho.
    I think, I mentioned several times in my testimony that we 
are not seeking to change any regulatory reform and in the NEPA 
process than what it is today.
    I think the biggest concern is that the interpretation and 
the inefficiencies with federal agencies and their 
inconsistencies on how they interpret NEPA and how they allow, 
as they go through the process, are entirely different from 
forest to forest, from project to project and to have a 
consistency in how the interpretation is and how to implement 
it would be valuable.
    Senator King. I think that is a very important point.
    I used to say, when I was Governor of Maine, I wanted Maine 
to have the most stringent environmental laws in the country 
and the most predictable and timely environmental process. And 
I think that is what you're saying.
    Ms. Sayer. Exactly.
    Senator King. It is not the rules you are talking about, it 
is the process.
    Ms. Sayer. Yes. And there's an extremely, a very large 
problem of interpretation.
    Senator King. That would vary--if you had a different mine 
in a different area of the country, you would have different--
--
    Ms. Sayer. Absolutely, in a different forest.
    Senator King. Fine.
    Ms. Sayer. And management that way.
    I could be in the same State of Idaho, and it could be in a 
different forest and it would be looked at differently.
    Senator King. Thank you.
    Thank you, Madam Chair.
    The Chairman. We hear that a lot. Thank you.
    Senator Capito.
    Senator Capito. Thank you.
    I would like to thank the Chair for this panel, and I want 
to thank the panel. It has been very interesting.
    I, too, am from the State of West Virginia so I am going to 
pivot off a little bit of what Senator Manchin was talking 
about in terms of coal waste and coal slag and the potential 
for this capturing of rare earth minerals from our acid mine 
drainage.
    We have Dr. ``Z'' at WVU. He has already been mentioned. He 
is opening, they are having a ribbon cutting tomorrow, as 
Senator Manchin mentioned, for its rare earth extraction 
facility.
    You can imagine in the State of West Virginia who has done 
a lot of coal mining in our time, we have a lot of refuse left 
over, a lot has been done with AML, but there is still work to 
be done and the potential to have something of value and have 
the added benefit of an environmental cleanup is very 
attractive to us.
    So, Dr. Eggert and Dr. Fortier, I would like to ask you if 
you could share your views on the opportunities and challenges 
of extracting rare earth elements from something like acid mine 
drainage as opposed to, you know, free out mining where you are 
actually getting the element directly.
    Dr. Fortier. Certainly there is a lot of potential for 
mining waste streams and then, I think, part of the directive 
in the Executive Order does require us to focus on that issue.
    Senator Capito. Right.
    Dr. Fortier. It's one of a number of solutions that we 
should, can and should be pursuing.
    Any individual opportunity that way always comes down to 
economics.
    Senator Capito. Right.
    Dr. Fortier. That's the nature of mining.
    I really can't comment on whether the process to extract 
from coal would be more economic than at some other process but 
certainly it is something we need to look at.
    Senator Capito. Thank you.
    Dr. Eggert, do you have thoughts on that?
    Dr. Eggert. I would simply echo the sentiment of your 
question and Dr. Fortier's comment, namely that there are 
significant unexploited opportunities for recovering minor 
metals from the production waste streams and leftover waste 
streams from not just coal, but phosphates, rock and fertilizer 
production, metallic mining in the western United States, even 
produced water from oil and gas production.
    Senator Capito. Do you see these processes as complementary 
or competitive in the future or is it still hard to predict 
because we do not really know the economic model?
    Dr. Fortier. I think it's quite likely that the answer to 
these issues is going to require some combination of 
approaches. Domestic mining, recycling, substitution, mining 
legacy streams, all of these things are part of the Executive 
Order and we are now required to respond with a whole of 
government approach to suggest strategies with each of these in 
mind.
    Senator Capito. Did you have an additional comment?
    Ms. Sayer, let me ask you this.
    The way I am understanding your particular mine site, you 
have a legacy mine, correct?
    Ms. Sayer. Correct.
    Senator Capito. That was unused for several years.
    Are you looking at the recyclable or are you or not 
recyclable but retaining it from some of the waste or are you 
doing the original mining for these rare earth minerals?
    Ms. Sayer. In every one of our areas that we will go in and 
mine. First of all, we will take ten million tons of 
unrestrained tailings and we're going to reprocess those and 
reuse them and we will get minerals and metals from those.
    We also will, each of the other two areas that we will be 
mining, we will be going into areas that have already been 
mined before. We'll just be doing it with modern mining. And 
that's what is so unique about modern mining today is today we 
are able to with, using modern mining, we're able to go in to 
areas that we've already mined before, go deeper, be able to 
re-mine those areas.
    Senator Capito. Good. Good.
    You know, it is interesting. I first heard of this topic at 
a Rotary Club. A professor from West Virginia University came 
down. I happened to be at the local Rotary Club. And he had 
this very same chart that was included in our briefing 
materials which is from USGS which shows the amount of the 
mineral and how much of it is imported.
    [The information referred to follows:]
    [GRAPHIC] [TIFF OMITTED] T0983.002
    
    Senator Capito. And you go down about the first 20 and 100 
percent of these minerals are imported and it says the major 
importer, and in most cases it is China in the top one or two 
or three.
    I think it was, sort of, jaw-dropping to all of us as we 
sit here with all of our devices and the different things that 
we realize are essential to our lives, to realize how dependent 
we are.
    So I guess my question would be along the lines of looking 
historically where we mined these materials before, did the 
economic model just drop out from under us to where it was no 
longer profitable for us and it was less expensive for us to 
import? I mean, how did we lose this buoyancy to our market and 
begin to turn into 100 percent of this imported of the 20 top 
minerals? Does anybody have an insight on to that?
    Dr. Fortier. I would say one thing about that.
    A lot of the materials we are most concerned about now that 
are on the critical minerals list, really weren't being used in 
the same amounts or in the same ways. It really, advances in 
technology and material science have opened up an entirely new 
realm of applications for these things.
    Senator Capito. Right. That makes sense.
    Dr. Fortier. So the mining of those has developed in fairly 
recent history.
    Senator Capito. Anybody else have perspective?
    Ms. Sayer. In the Stibnite Gold project, antimony, we get 
76 percent of the antimony we get is from China, 7 percent from 
Russia, 6 percent from Kazakhstan and I, we, were mining that.
    We use it in strategic. We use it in military grade 
munitions. It's being used. We're just getting it somewhere 
else. And one of the reasons I think is because, to be honest, 
how difficult it is for permitting and investment in the states 
because of permitting.
    Senator Capito. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you.
    Senator Risch.
    Senator Risch. Thank you, Madam Chairman. Thank you for 
holding this hearing.
    Anybody who thinks this is not important just needs to look 
back some years ago when the Chinese and the Japanese had a 
spat and the Chinese just flat cut off Japan's access to this 
material. It just flat shut things down there and particularly 
in some very critical industries for them. So it is important 
that we do focus on this and see what we can do about it.
    Mr. Mintzes, I noticed you, kind of, smirked when you 
talked about the westward expansion development of America. You 
know, in Idaho we take this very seriously. We do not smirk 
about it. Mining is an extremely important industry for Idaho.
    Let me tell you about the Great Seal of the State of Idaho. 
There are two people on it. Depicted on the left is a woman who 
represents agriculture and justice and education and a number 
of other things. Featured prominently in the middle are our 
mountains and our streams which we cherish deeply. And on the 
right-hand side is a man who is featured, the same stature as 
those others, he carries a shovel and a pick. That tells you 
how important this is to the great State of Idaho.
    Our development was closely tied to mining. Indeed, we had 
one governor assassinated and it was a result of a mining 
dispute. Mining has played a prominent role in this.
    I hope you listened carefully to what Ms. Sayer talked 
about trying to permit this mine at Stibnite. She is ably 
supported by Michael Bogart who is sitting behind her. Michael 
is General Counsel to one of the best governors that Idaho ever 
had.
    [Laughter.]
    And he had a distinguished career here in Washington, DC, 
also.
    Thank you for what you do. I think probably one thing that 
really ought to come to everyone's, the front of everyone's, 
mind here after listening to what Ms. Sayer said is this is not 
a poor people's sport. Trying to do this in America today takes 
tremendous amount of capital assets and not only does it take 
that, it takes a board of directors and officers who will stick 
with something like this because it is demoralizing.
    Those of us who practiced law represented a lot of people 
trying to do this in Idaho. We have legacy sites. We have new 
sites. And to try to do it, you lose a lot of sleep at night.
    Ms. Sayer, how much has your company recognized in revenue 
as a result of all your expenditures so far?
    Ms. Sayer. Well the total amount we spent, $20 million 
doing this. We've already gone over and above on $11 million 
additional into what we have paid the Forest Service which 
the--and the third-party contractor which was over $5 million. 
So in total, I think we're around, I think the number was $86 
million we will have invested, plus this is a billion-dollar 
project to build. We will invest $1 billion once we get the 
record of decision to build this project. So, it's a very 
large----
    Senator Risch. What does the other side of the ledger look 
like? How much have you taken in so far?
    Ms. Sayer. Oh, I'm, probably----
    Senator Risch. Probably close to zero isn't it?
    Ms. Sayer. Oh, for the production. Oh, yeah, this has all 
been investor money. We have not had, I hear where you're going 
with that question.
    Senator Risch. Yes, that is my point exactly.
    Ms. Sayer. Yes, we have not----
    Senator Risch. What kind of stamina it takes to get this 
done.
    Ms. Sayer. We don't have any profit at all, exactly.
    Senator Risch. I want to assure Mr. Mintzes that although 
all of us who have worked in this recognize and desperately 
need streamlining, there is nobody trying to degrade the 
environment. There is nobody more committed to the environment 
than the people in Valley County who are promoting this. The 
legislature that has passed a memorial in this session 
promoting this, all of us, value our mountains and our streams 
greatly. Valley County is probably one of the prettiest places 
in America, and those people that live there really value that 
tremendously.
    I can also assure you that in Idaho we have an umbrella 
organization called the Idaho Conservation League, and the 
Idaho Conservation League is going to look over these people's 
shoulder very, very carefully.
    I know this is going to be hard for you to believe coming 
from Washington, DC, but they actually know Idaho better than 
you do and they are going to very, very carefully monitor this. 
They have been so far. I think the project is to be commended 
for keeping them in the loop as much as they have.
    So, with that, I wanted to go into a little bit about how 
important this is, but I think there is plenty of literature 
and most people are well aware of it.
    Madam Chairman, thank you for holding this hearing.
    The Chairman. Thank you, Senator.
    I will just note for the record that the great State of 
Alaska has on its seal a pick and a gold pan recognizing the 
contributions that mining has brought to our state as well, so.
    Senator Hoeven from the great State of North Dakota.
    Senator Hoeven. Thank you, Madam Chairman.
    We don't do a whole lot of mining other than for lignite 
coal, although we do a lot as you know of drilling for oil and 
gas, as do you.
    But this is a very timely hearing. Thank you for doing it.
    I want to start with--do you pronounce it Dr. Fortier or--
--
    Dr. Fortier. Fortier.
    Senator Hoeven. Okay.
    I understand there are 21 rare earth minerals where we 
import 100 percent of what we use. Why? Is that because we just 
don't have them or we just don't produce them?
    Dr. Fortier. I think for----
    Senator Hoeven. I know we get a lot of them from China.
    Dr. Fortier. Most of the minerals that are on our import 
reliance chart which Senator Capito had earlier, which we 
publish every year, are available and are in the U.S. We have 
reserves or resources in the U.S. They are not mined typically 
for economic reasons in the U.S.
    Senator Hoeven. Alright.
    Are there things then that we should be doing from a policy 
standpoint to promote mining those minerals here rather than 
importing our entire use, you know, recycling the materials 
they are in, encouraging mining? What would make sense in your 
opinion?
    Dr. Fortier. I think there are a number of things that are 
outlined in the Executive Order that the President issued in 
December that are part of the response to the report responding 
to that order, they are exactly the kinds of things that you 
just mentioned.
    USGS' role is to identify and inform those policy 
decisions, not make them ourselves. So we are contributing to 
that report by ensuring that the information that people are 
using to make policy recommendations is, in fact, 
scientifically accurate and sound.
    Senator Hoeven. For example, mapping is helpful, those 
kinds of things?
    Dr. Fortier. Mapping is an important part of the response 
to the Executive Order.
    Senator Hoeven. Regulatory burden?
    Dr. Fortier. The USGS is not a regulatory agency, so I 
can't address that.
    Senator Hoeven. I know, but we are asking for your 
recommendations.
    Dr. Fortier. I really can't speak to that as a 
representative of an agency that does not do permitting.
    Senator Hoeven. Alright then, Dr. Eggert, how do we develop 
more public-private support for development of some of these, 
production of some of these minerals? Should we and how should 
we?
    Dr. Eggert. I think the Federal Government plays an 
important role even though we rely primarily on the private 
sector to develop the commercial activities throughout the 
material supply chain. There are a range of policies, many of 
which have been contained in legislation that the Chairman has 
worked with other members on in the past, and they include more 
efficient permitting that has appropriate environmental 
protections. They include information and strategic analysis in 
places like the USGS. Clearly geologic mapping that underpins 
precompetitive types of research and development, as well as 
education, the workforce and professionals necessary for a 
minerals and materials industry. All of these are important 
roles for the Federal Government.
    Senator Hoeven. Mr. Sims, you have a big project going, or 
you are working on a big project, I understand, in Nebraska and 
Elk Creek. What are the minerals? This could be as much as a 
billion-dollar capital investment. What is it you are after? 
Why there? And how is it going in terms of local, state and 
Federal Government as far as permitting that type of 
enterprise?
    Mr. Sims. Thank you, Senator.
    We're looking to produce three critical minerals, niobium, 
scandium and titanium, all of them have uses in a variety of 
commercial----
    Senator Hoeven. Titanium, of course, I know about. What are 
the other two for?
    Mr. Sims. The two, they're on your periodic table and I 
know you remember these from your high school chemistry class.
    Senator Hoeven. That's good. I look at it all the time.
    Mr. Sims. But they're both metals and niobium goes into 
steel, predominately. It makes a high strength steel, so it's 
used increasingly in bridges and infrastructure projects. It 
lets bridges last in excess of 100 years instead of, say, 30 to 
50. It's used in virtually all steel chassis automobiles today 
on the planet. You put a little bit of niobium, very small 
amount in steel and it creates a really, really strong steel. 
It also then lightens the applications. So, it makes cars 
lighter in mass, therefore, more fuel efficient. Therefore, 
they have less emissions.
    Scandium is also a metal that does for aluminum what 
niobium does for steel.
    Senator Hoeven. Okay.
    Mr. Sims. Add in a very small amount, it makes aluminum 
extremely strong, much more corrosion resistant. It's also 
used, interestingly, not in its metal form, in a, I would say, 
a higher efficiency, clean energy technology called solid oxide 
fuel cells. It's a natural gas fuel technology but it's very, 
very highly efficient, much lower emissions profile and very 
highly dependent electricity.
    So those are the two, in addition to titanium, those are 
the two we're looking to produce.
    Senator Hoeven. So are you advancing this project and how 
is it going and what are the regulatory barriers or is it going 
well?
    Mr. Sims. We're going well. We're going great.
    We have a feasibility study done which is about a $35 
million plus effort over the last four years. We're now in the 
process of focusing 24/7/365 on raising that up-front capital 
required to go to construction. That's going well.
    And as I mentioned in my testimony, we have been fortunate 
in that we were able to make some changes on the front end at 
the design stage of this process to avoid and, in some cases, 
eliminate what we anticipated were environmental impacts on the 
front end. We've engineered a lot of those out so our 
permitting process, we still have dozens and dozens of permits 
to get to go forward. Most of those now, virtually all of 
those, are governed by the state and in terms of a federal 
permitting burden or risk, as you would look at it, it's very, 
very low now. So we're moving ahead.
    Senator Hoeven. Very good.
    Thank you.
    The Chairman. Thank you, Senator Hoeven.
    Senator Cantwell, we have had a great hearing this morning. 
It is now your turn.
    Senator Cantwell. Thank you so much, Madam Chair, and I 
appreciate my colleague, Senator Wyden, being here earlier.
    One of the questions that my colleague was getting at: When 
you think about how we protect ourselves writ large, the 
Strategic Petroleum Reserve is a good example. We make sure 
that we don't have a short supply.
    In the global market, tight supplies can sometimes push the 
innovation we were just discussing.
    And so, what, I think Mr. Eggert--and I apologize, your 
name plate there, it doesn't quite show your name as forcefully 
there.
    Anyway, the point is, on global supply chains and 
shortages, the notion is that recycling can help us, 
particularly with alternative minerals. What should we be doing 
to fortify that for the future?
    Dr. Eggert. Recycling, to me at least, obviously is part of 
the solution. It's not the entire solution.
    There's already significant recycling of many of the major 
metals, aluminum, copper, iron and steel. There's much less 
recycling of the specialty metals, the rare earths, the 
lithiums, the niobiums of the world.
    It will be some time before recycling can be an important 
meeter of demand because many of the products into which these 
materials are going have only recently been purchased and have 
lifetimes of 5, 10, 15, 20 years. A period of time in which 
demand will be growing.
    But now's the time to put the, to be thinking about 
collection systems, sorting systems and processing technologies 
that will be then available when the quantities of materials 
are sufficiently large that recycling can play a larger role.
    Senator Cantwell. As I mentioned, the Strategic Petroleum 
Reserve is our interest in making sure that we don't get caught 
short. Why not take the same approach?
    For example, we are working on recycling of carbon fiber. 
Obviously it made a big play in aerospace, carbon fiber, but is 
still very expensive for smaller entities to make those kinds 
of investments. We are going to have a lot of carbon fiber, so 
we are recycling it so that smaller entities can use it in a 
cost-effective way.
    This is a DOE program. Why not have a similar DOE program 
on some critical minerals? So instead of waiting for the market 
to play that role, let us get started in playing that role. I 
think, what we are trying to evaluate as it relates to carbon 
fiber is, what are all those other small businesses that are 
going to develop once they see that you can successfully do the 
recycling of carbon fiber?
    It is just so new, right? But the one thing that we have as 
a nation, the strength of the United States from a competitive 
perspective, is our R&D and our ability to take that R&D and 
show a scalable solution.
    I see a bunch of people nodding. If somebody else wants to 
jump on this point?
    Dr. Eggert. Let me just say, I agree absolutely.
    The consortium that I'm involved with, the Critical 
Materials Institute, is in fact this DOE, a DOE consortium of 
public-private partnership, if you will, where we helped 
develop a process for recycling yttrium and thermal barrier 
coatings. And so, yes, there is activity in that area that 
potentially could be more important, more broadly than within 
DOE and it's----
    Senator Cantwell. Are there several other minerals that you 
would recommend right now for that same kind of recycling?
    Dr. Eggert. I don't have specific recommendations, really 
any of the minor metals that have important uses in military 
applications.
    Senator Cantwell. Okay.
    Anybody else? Just a bunch--yes, go ahead.
    Mr. Sims. Senator, obviously we're going to be producing 
scandium in Nebraska when we're up and running. We're going to 
produce 100 tons per year of scandium which, by the way, sounds 
like a lot. It's not.
    There is a market for scandium, certainly in the U.S. and 
globally of, at a minimum, several hundred tons per year. So 
even when we're up and running, we're going to be the largest 
producer, the U.S. will be the largest producer by far of 
scandium. But it's not going to be enough. We'll be able to 
sell our scandium, we believe, but perhaps other development 
and potentially someday, some recycling may be necessary to 
meet that growing demand. You need both, I think.
    Senator Cantwell. I am a big fan of reforming the 1872 
Mining Law and getting a fair deal for taxpayers and making 
sure that we update the reclamation standards. What about that? 
Getting product from the mining waste that we are not doing 
today?
    Mr. Mintzes. Thank you, Senator.
    So one of the great features in reforming the 1872 Mining 
Law is that it would help create that dedicated funding source 
for Reclamation that we already see in the context for coal.
    And so, as the West Virginia senators were mentioning 
earlier, the notion that you could, in principle, carefully, on 
a case-by-case basis, look at projects whereby that Reclamation 
Fund pays for these kinds of activities that the researchers 
and the private-
public--the DOE is doing right now is possible.
    Senator Cantwell. Thank you.
    Thank you, Madam Chair.
    The Chairman. Thank you, Senator Cantwell.
    Just a few final questions here. We have a vote that has 
just been called, so it is good timing here.
    Ms. Sayer, you have indicated that you are operating on 
Forest Service land. I detected a fair amount of frustration 
from you in saying that if it was a different Forest Service 
you might be subject to different interpretation or different 
issues that might be presented.
    Explain to me--it seems that almost without exception we 
have issues that are brought before this Committee and whether 
it is mining or whether it is grazing or whether it is 
harvesting trees, whether it is oil and gas permitting, it 
seems invariably it is harder and more complicated to do it on 
federal land.
    So your comments about what you are dealing with is, again, 
consistent with everything that we have heard. The fact that we 
are seeking to access these minerals that have been identified 
by our own Federal Government as important. They are critical. 
They are important for us to have. Does that give you, as a 
company that is looking to develop on public land, on our 
Forest Service land, does that give you any advantages?
    I will ask Mr. Gregory the same question. You have noted 
that beryllium provides significant advantages to the 
Department of Defense. It has been identified as not only 
strategic but also critical. Because it has been designated so 
and the Department of Defense needs this, are there any 
advantages?
    We are going to a lot of trouble to put minerals on a list. 
But if it is just put on a list and we are still making it just 
as complicated and difficult to gain access to it in this 
country, I guess I am asking a somewhat rhetorical question is 
why do we put it on the list? Your comments? And Mr. Sims, you 
can join us in this discussion.
    Ms. Sayer. So my first thoughts of that would be the 
advantages for the business model and the investment of it 
attracting investors and help with the business model to have, 
to be listed on there.
    It would, it also provides, it's benefited us in a social 
license aspect with our communities. We have committed citizens 
of Idaho that want to contribute to supporting the critical 
minerals and this particularly antimony basically because there 
is a history. It's surprising to see the grandfathers of the 
people that still live in the community who used to work at the 
mine during the war years. So, social license, business 
investment, those are all real and that is, that does attract.
    The Chairman. Those are both very, very key.
    Ms. Sayer. Yes.
    But the--it would be, what would be the most helpful as the 
tax reforms have been put into place and how that has been 
attractive. If we could have the permitting to match that tax 
reform and those other benefits that have come. We need to get 
the expertise in the permitting across the board that is 
efficient and that is consistent and the rules are there, the 
regs are there. There is just the interpretations are 
inconsistent across the board.
    The Chairman. Mr. Gregory.
    Mr. Gregory. Materion is--there ought to be a long-term 
reliable partner and supplier to both the Department of Defense 
and the Department of Energy, starting with the Manhattan 
Project and we have always supplied in a competitive 
environment.
    The area where being a strategic and critical mineral comes 
into play though is both departments frequently issue requests 
for proposals on ways to improve technology, to reduce cost, to 
secure supply and, you know, we respond to those requests. It 
gives us a seat at the table and our ideas are judged based on 
merit and where we have a good idea, you know, maybe we get a 
hearing that we might have not otherwise.
    So to me, that is an advantage is getting a seat at the 
table when we're looking at improving these resources.
    The Chairman. Mr. Sims.
    Mr. Sims. Madam Chair, I think one of the biggest outcomes 
of this process, besides what may happen with government 
relation permitting is just helping Americans understand the 
extraordinarily number, large number and complexity of the 
supply chains that make this iPhone and everything else.
    I'm still trying to get my three kids, Noah, Ella, and 
Hannah, to understand just how hard it is to make one of these. 
In the 1960s it took about 12 elements on the periodic table to 
make a computer chip. It now takes more than 60.
    So helping Americans understand that we need these and we 
need more than we used to will help them, I think, bring to the 
table more support for developing these minerals whether 
they're mined or whether they're recycled or in the cases where 
we have to import them.
    The Chairman. I appreciate that.
    Dr. Eggert, I asked about the role of the Critical Minerals 
Institute and all that they do. Your testimony describes the 
advanced materials and the chemical separation technologies.
    Are you familiar with the molecular recognition technology 
that Ucore is looking at? It is an effort to do the rare earth 
separation. This is up in Alaska. This is something that we 
have been in discussion with them on for some time. I am 
wondering if you are familiar with it and if this is something 
that CMI is perhaps involved with or reviewing?
    Dr. Eggert. I am familiar with, know of the molecular 
recognition technology that Ucore is developing. It's one of 
several potentially very revolutionary techniques in terms of 
rare earth separations, one of the key challenges in rare 
earths. CMI is aware of this. We are not actively engaged with 
Ucore, but that certainly is a possibility in the future.
    The Chairman. Yes.
    And one of the things that we have not discussed here this 
morning, we have been talking about the resources themselves, 
but our reality is that we are not doing any of the processing. 
That is all going to China too. That is another level of 
vulnerability.
    When we talk about this full supply chain and what it is 
really going to mean in terms of vulnerability, if we are able 
to extract it safely here, good for us, but if the next step is 
always going to be China for the processing, guess what, we are 
back in the same opportunity for more strangleholds here. So I 
put that out there.
    I know you all think about it, but particularly when we are 
talking about the role that China plays with these critical 
minerals, we have to be thinking about it full stream.
    The other issue that really didn't come up. I think, Dr. 
Eggert, you mentioned it somewhat briefly and maybe Dr. Fortier 
in your written testimony, and that is the issue of developing 
a workforce here.
    I know that in Alaska we have great mines, great mining 
opportunity, but to develop the men and women to go into this 
industry, these critical industries that supply this whole 
supply chain. I am worried about that end of it as well.
    It is one thing to have the resource. It is another thing 
to be able to extract it efficiently and in a manner that 
allows for a process that is fair, that is environmentally 
sound, but you have to have the men and women and it is more 
than just the extraction.
    So I feel like, again, this is yet one more year that we 
focus on this as an issue. We are shining a spotlight that is 
important.
    I appreciate, again, what the Administration has done with 
the focus with the Executive Order. I think that was necessary, 
but there is so much, much more that needs to be done and it 
takes everybody here.
    I see some folks from the mining industry that are part of 
this discussion. They know that it is more than just about 
taking it out of the ground. It is how we do it and making sure 
that we are attractive from a regulatory perspective, but also 
from that investment perspective.
    Mr. Mintzes, I think you mentioned in your written 
testimony that you felt that this country was a pretty good 
place for investment among one of the world's most attractive 
destinations for mining investments. I am sure not hearing that 
from folks.
    That is another aspect of what it is that we need to do to 
address that. And unfortunately, until you have some regulatory 
certainty, until you have some clear policies here, it is tough 
to get investors because what you do out there is not cheap. It 
is not easy and it is not quick.
    And that social license that you talk about, Ms. Sayer, I 
think we all recognize that there is a responsibility. We take 
that very seriously. I know the industry takes it very, very 
seriously. All these pieces working together will allow us to 
move forward.
    But we are not moving fast enough in my book, and I am 
going to continue to sound the alarm, continue to press on the 
urgency because as we saw from that chart that Senator Capito 
shared with us, that is part of our binders here this morning. 
Our situation is not getting better. It is progressively 
getting worse and vulnerability is not a place where I want to 
be today.
    I thank you for your time and thank you for the expertise 
that you have shared with the Committee.
    With that, we stand adjourned.
    [Whereupon, at 12:00 p.m. the hearing was adjourned.]

                      APPENDIX MATERIAL SUBMITTED

                              ----------                              

[GRAPHIC] [TIFF OMITTED] T0983.053

[GRAPHIC] [TIFF OMITTED] T0983.054

[GRAPHIC] [TIFF OMITTED] T0983.055

[GRAPHIC] [TIFF OMITTED] T0983.056

[GRAPHIC] [TIFF OMITTED] T0983.057

[GRAPHIC] [TIFF OMITTED] T0983.058

[GRAPHIC] [TIFF OMITTED] T0983.059

[GRAPHIC] [TIFF OMITTED] T0983.060

[GRAPHIC] [TIFF OMITTED] T0983.061

[GRAPHIC] [TIFF OMITTED] T0983.062

[GRAPHIC] [TIFF OMITTED] T0983.063

[GRAPHIC] [TIFF OMITTED] T0983.064

[GRAPHIC] [TIFF OMITTED] T0983.065

[GRAPHIC] [TIFF OMITTED] T0983.066

[GRAPHIC] [TIFF OMITTED] T0983.067

[GRAPHIC] [TIFF OMITTED] T0983.068

[GRAPHIC] [TIFF OMITTED] T0983.069

[GRAPHIC] [TIFF OMITTED] T0983.070

[GRAPHIC] [TIFF OMITTED] T0983.071

[GRAPHIC] [TIFF OMITTED] T0983.072

[GRAPHIC] [TIFF OMITTED] T0983.073

[GRAPHIC] [TIFF OMITTED] T0983.074

[GRAPHIC] [TIFF OMITTED] T0983.075

</pre></body></html>
